IPO 2010E001                          February 1, 2010




      Evaluation of DoD Sexual Assault Response in
     Operations Enduring and Iraqi Freedom Areas of
                       Operation
IPO2010E001



Additional Information and Copies
The Department of Defense Office of the Deputy Inspector General for Policy and
Oversight, Assistant Inspector General for Investigative Policy and Oversight, prepared
this report. If you have questions or would like to obtain additional copies, contact
Ms. Melvina Coakley at (703) 604-8622 (DSN 664-8622).

Suggestions for Evaluations
To suggest ideas for or to request future evaluations, contact the Office of the Deputy
Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-
8932. Ideas and requests can also be mailed to:


                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
Acronym               Refers to:                  Acronym                   Refers to:
AFOSI           Air Force Office of Special       MNC-I               Multi National Corps-Iraq
                Investigations
DoD             Department of Defense             MNF-I               Multi National Force-Iraq

FAR             Federal Acquisition Regulation    NCIS                Naval Criminal
                                                                      Investigative Service
HCP             Health Care Provider              OUSD (P&R)          Office of the Under
                                                                      Secretary of Defense
                                                                      (Personnel and Readiness)
IG              Inspector General                 SAFE                Sexual Assault Forensic
                                                                      Examination
KBR             Kellogg Brown & Root              SAPRO               Sexual Assault Prevention
                                                                      and Response Office
MCCID           Marine Corps Criminal             SARC                Sexual Assault Response
                Investigation Division                                Coordinator
MCIO            Military Criminal Investigative   USCENTCOM           United States Central
                Organization                                          Command
MEJA            Military Extraterritorial         VA                  Victims Advocate
                Jurisdiction Act of 2000
IPO2010E001
IPO2010E001


                                           TABLE OF CONTENTS

I.    INTRODUCTION AND SUMMARY ........................................................................ 1
II. BACKGROUND ......................................................................................................... 4
III. SCOPE ......................................................................................................................... 5
IV. FINDINGS AND ANALYSIS .................................................................................... 6
    A. Do DoD policies and procedures address receiving, processing, and
       reporting sexual assault complaints for contractor personnel in Iraq and
       Afghanistan? ......................................................................................................... 6
       1. Standards ....................................................................................................... 6
       2. Facts .............................................................................................................. 6
       3. Discussion ................................................................................................... 11
    B. Are military medical officials required to report sexual assault
       complaints to law enforcement? ......................................................................... 11
       1. Standards ..................................................................................................... 12
       2. Facts ............................................................................................................ 12
       3. Discussion ................................................................................................... 14
    C. Do military medical officials comply with standards regarding forensic
       examinations and medical records maintenance? ............................................... 14
       1. Standards ..................................................................................................... 14
       2. Facts ............................................................................................................ 14
       3. Discussion ................................................................................................... 15
    D. What are the dispositions of complainants and accused personnel during
       the investigative process when sexual assault complaints involve
       contractor personnel?.......................................................................................... 16
       1. Standards ..................................................................................................... 16
       2. Facts ............................................................................................................ 16
       3. Discussion ................................................................................................... 17
V. CONCLUSIONS ....................................................................................................... 17
VI. RECOMMENDATIONS ........................................................................................... 18
VII. MANAGEMENT COMMENTS ............................................................................... 18
Appendix A. DoD Response to Jamie Leigh Jones Sexual Assault Complaint .............. 19
Appendix B. Standards .................................................................................................... 23
Appendix C. MCIO Case Data ........................................................................................ 31
Appendix D. KBR Case Data .......................................................................................... 32
Appendix E. Report Distribution ..................................................................................... 35
Appendix F. Management Comments ............................................................................. 37
IPO2010E001
IPO2010E001
IPO2010E001


     EVALUATION OF DOD SEXUAL ASSAULT RESPONSE
     IN OPERATIONS ENDURING AND IRAQI FREEDOM
                AREAS OF OPERATION

I.        INTRODUCTION AND SUMMARY
        We initiated this review in response to questions from Members of Congress
concerning Department of Defense (DoD) sexual assault 1 policies for contractor
personnel 2 in combat areas. Our review sought to determine whether DoD policies and
practices ensure sexual assault complaints involving contractors in the Operations
Enduring Freedom and Iraqi Freedom areas of operation were properly received,
processed, and referred for investigation. 3 We focused on the following specific
questions:

       A. Do DoD policies and procedures address receiving, processing, and reporting
sexual assault complaints involving contractor personnel in the areas of operation?

       B. Are military medical officials required to report sexual assault complaints
from contractor personnel to law enforcement personnel?


1
     DoD Directive 6495.01, “Sexual Assault Prevention and Response (SAPR) Program,” October 6, 2005,
     states that “for the purpose of this Directive and SAPR awareness training and education, the term
     “sexual assault” is defined as intentional sexual contact, characterized by use of force, physical threat or
     abuse of authority or when the victim does not or can not consent. It includes rape, nonconsensual
     sodomy (oral or anal sex), indecent assault (unwanted, inappropriate sexual contact or fondling), or
     attempts to commit these acts. Sexual assault can occur without regard to gender or spousal
     relationship or age of victim. “Consent” shall not be deemed or construed to mean the failure by the
     victim to offer physical resistance. Consent is not given when a person uses force, threat of force,
     coercion, or when the victim is asleep, incapacitated, or unconscious.” Change 1, November 2008, has
     updated this definition and states “that the term “sexual assault” is defined as intentional sexual contact,
     characterized by use of force, threats, intimidation, abuse of authority, or when the victim does not or
     cannot consent. Sexual assault includes rape, forcible sodomy (oral or anal sex), and other unwanted
     sexual contact that is aggravated, abusive, or wrongful (to include unwanted and inappropriate sexual
     contact), or attempts to commit these acts. “Consent” means words or overt acts indicating a freely
     given agreement to the sexual conduct at issue by a competent person. An expression of lack of consent
     through words or conduct means there is no consent. Lack of verbal or physical resistance or
     submission resulting from the accused’s use of force, threat of force, or placing another person in fear
     does not constitute consent. A current or previous dating relationship by itself or the manner of dress of
     the person involved with the accused in the sexual conduct at issue shall not constitute consent.”
2
     For purposes of this review, the terms “contractor,” “contractor personnel,” “civilian,” and “civilian
     personnel” are defined as persons employed by the DoD or Defense contractors who are U.S. citizens.
3
     The Office of the Inspector General of the Department of Defense also conducted an “Audit of DoD
     and DoD Contractor Efforts to Prevent Sexual Assault/Harassment Involving Contractor Employees
     Within Operations Enduring Freedom and Iraqi Freedom Areas of Operation” (Project No. D2008-
     DOOOCE-0221.000).




                                                        1
IPO2010E001


      C. Do military medical officials comply with standards regarding forensic
examinations and medical records maintenance?

        D. What are the dispositions of complainants and accused personnel during the
investigative process when sexual assault complaints involve contractor personnel?

        The DoD Sexual Assault Prevention and Response program policy for sexual
assault response, as outlined in DoD Directive 6495.01, “Sexual Assault Prevention and
Response (SAPR) Program,” October 6, 2005, is to (1) provide an immediate, trained
response capability for each sexual assault report in all locations, including deployed
locations, and (2) ensure sexual assault victims are protected, treated with dignity and
respect, and receive timely access to appropriate treatment and services. This policy is
implemented at the Military Service level in Service specific regulations, and through the
use of Sexual Assault Response Coordinators (SARC), Deployed Sexual Assault
Response Coordinators (DSARC), Victim Advocates (VA), Health Care Providers
(HCP), and law enforcement personnel.

         To evaluate the DoD response to contractor sexual assault complaints, we
reviewed current and past policies and procedures for reporting a sexual assault involving
a contractor. We interviewed representatives from the offices responsible for, and people
in the field who implement, the DoD Sexual Assault Prevention and Response Program.
We also interviewed officials with the Office of the Under Secretary of Defense
(Personnel and Readiness), Sexual Assault Prevention and Response Office (SAPRO),
the office that administers the sexual assault program, and officials from the Military
Service Sexual Assault Prevention and Response programs, the offices that implement
the program.

        Our interviews included key personnel, such as the SARC. These individuals
serve as the central points of contact to oversee sexual assault awareness, prevention, and
response training and to ensure appropriate care is coordinated and provided to sexual
assault complainants. We also interviewed DSARCs who function as SARCs in combat
environments; VAs who facilitate care for complainants under the Sexual Assault
Prevention and Response program; and HCPs who provide health care services at
Military Medical Treatment Facilities. They, along with law enforcement officers, are
collectively known as first responders. We considered these entities to be an integral part
of the DoD program for receiving, processing, and reporting sexual assaults.

       We found one major policy deficiency during our review. The DoD policies and
processes for receiving, processing, and reporting sexual assaults address only active duty
Service members and other individuals authorized treatment in a Military Medical
Treatment Facility. 4 The policies do not address other categories of personnel, such as
DoD civilian and contractor personnel who deploy with military forces.


4
    Eligibility for treatment is determined by the Military Services and reported to the Defense Enrollment
    Eligibility Reporting System. Eligibility is usually limited to Service members, retirees, and their
    family members.



                                                     2
IPO2010E001


         To remedy this lack of program guidance, deployed commanders implemented
local procedures to care for all sexual assault complainants. Those procedures took the
complainant’s status into account in determining whether program differences, e.g.,
restricted 5 and unrestricted 6 reporting requirements, should be applied in individual
cases.

        After reviewing investigative files and other records, and interviewing or
surveying 133 SARCs, DSARCs, VAs, and commanders, we learned the Military
Services, though lacking definitive SAPRO guidance, routinely provided victim services
to sexual assault complainants, including U.S. civilian and contractor personnel. These
services included emergency care, follow-on care, and referring the complaint for
investigation. Consequently, sexual assault complainants involved in the U.S.
deployments received investigative, medical, and advocacy services when the sexual
assault was reported to military officials. We did not find any evidence or instance where
the Military Services denied Sexual Assault Prevention and Response program services
to contractor personnel.

        We did find that the SAPRO, Military Service Sexual Assault Prevention and
Response program officials, and local DSARCs did not collect, document, or report
advocacy services information provided to civilian and contractor employees. Therefore,
we could not analyze primary records on advocacy services these complainants may have
received. During calendar years 2005 through 2007, the Military Criminal Investigative
Organizations (MCIOs) 7 conducted 25 sexual assault investigations involving U.S.
civilian and contractor personnel in the Operations Enduring and Iraqi Freedom areas of
operation.

        In 8 of the 25 cases (32 percent), contractor company officials reported the assault
to DoD military authorities. In the remaining 17 cases (68 percent), the complainants
notified law enforcement directly, either through a friend, a co-worker, or the military
chain of command. In nine cases (36 percent), medical personnel performed sexual
assault forensic examinations, and provided evidence to criminal investigators.

       In 12 cases (48 percent), the criminal investigative files indicated the victims were
offered either SARC or Employee Assistance Program services. 8 In addition, these files
included notes or coordination records, indicating SARC or Employee Assistance

5
    Per DoD Directive 6495.01, restricted reporting allows a Service member to disclose, confidentially, the
    details of his/her sexual assault to specified individuals and receive medical treatment, counseling, and
    advocacy services without triggering the official investigative process. This option is only available to
    Service members.
6
    Per DoD Directive 6495.01, unrestricted reporting allows an individual to report the details of his/her
    sexual assault and receive medical treatment, counseling, and advocacy services, but the report triggers
    the official investigative process.
7
    The MCIOs include the U.S. Army Criminal Investigation Command, the Naval Criminal Investigative
    Service, and the Air Force Office of Special Investigations.
8
    Professional support services provided to employees by the Defense contractor usually through a
    private insurer.



                                                      3
IPO2010E001


Program representatives were present during complainant interviews with law
enforcement.

        We found no DoD or Service-specific policy that required military medical
officials to report sexual assault complaints to law enforcement authorities. DoD policy 9
describes the medical provider’s role as notifying the SARC. The policy stipulates that
the medical provider’s notification requirement is met once the SARC has been notified,
and the SARC will handle reporting to law enforcement.

        We found medical officials complied with DoD standards for collecting,
preserving, and maintaining chain of custody over evidence, specifically using Sexual
Assault Forensic Examination kits. Additionally, the Military Services regulatory
requirements for collecting Sexual Assault Forensic Examination kits complied with DoD
policy. In the 25 cases reviewed, we did not identify any instance where a sexual assault
forensic examination was appropriate, but not conducted.

       Finally, we found that available data provided a final disposition on the accused
once the allegation was adjudicated. However, records did not indicate the disposition of
the complainant or the accused during the investigative process.

        We recommend the Under Secretary of Defense (Personnel and Readiness),
establish, and the Military Services implement, policy that will provide an immediate
response, by trained personnel, for all sexual assaults involving U.S. personnel reported
to DoD facilities.

         We also recommend the Under Secretary of Defense (Personnel and Readiness),
Sexual Assault Prevention and Response Program Office, in coordination with the
Military Services develop a data system that records relevant data on sexual assault cases
involving civilian and contractor personnel. The data, at minimum, should include the
complainant’s identity, when and where the assault occurred, when the complaint was
filed, the support services requested or provided, when the complaint was referred for
criminal investigation, and the final disposition on the complaint.

       This report sets forth our detailed findings and recommendations based on
reviewing the existing DoD policy, guidance, and practice.


II.        BACKGROUND
        In a letter to, and in testimony before the Congress, Ms. Jaime Leigh Jones stated
that on July 28, 2005, while working in Iraq for Kellogg Brown and Root (KBR), other
KBR employees sexually assaulted her. 10 At the time, Ms. Jones worked at Camp Hope,
Iraq, an area under the operational control of the United States Department of State. The

9
      DoD Pamphlet, “Healthcare Provider’s Role in Responding to Sexual Assault.”
10
      Jamie Leigh Jones’ May 16, 2007, letter to Senator Charles Grassley, and December 19, 2007,
      “Testimony before the House Judiciary Subcommittee on Crime, Terrorism and Homeland Security.”



                                                    4
IPO2010E001


Department of State Bureau of Diplomatic Security investigated her sexual assault
complaint 11 and presented the case to the U.S. Attorney for the Northern District of
Florida, who accepted the case on June 1, 2007. We limited our work on Ms. Jones’
complaint to the DoD response to her sexual assault complaint. 12 The results of our work
are at Appendix A.

        As a result of Ms. Jones’s contacts, we received numerous congressional requests
to evaluate how DoD responds when Government contractor personnel working in Iraq
and Afghanistan complain they have been sexually assaulted.


III.       SCOPE
        To evaluate the DoD response to sexual assault complaints in Iraq and
Afghanistan, we reviewed the legislative requirements relative to the DoD sexual assault
policy, as well as past and current DoD and Military Services policies, regulations, and
procedures. We also examined reports that included previous findings and
recommendations related to sexual assault in the Military Services and at Service
Academies. For the current review, we focused on how DoD responds to sexual assault
complaints involving contract employees who accompany U.S. Forces in Iraq and
Afghanistan.

        We interviewed Office of the Secretary of Defense, United States Central
Command (USCENTCOM), and Military Services officials responsible for the Sexual
Assault Prevention and Response program, including: DoD SAPRO staff; Departments
of the Army, Navy, Air Force, and Marine Corps Sexual Assault Prevention and
Response Program Directors and staffs; USCENTCOM Sexual Assault Prevention and
Response Program Director and staff; and Major Command, Numbered Command, Fleet
Command, and installation and deployed SARCs. We also conducted focus group
meetings, and interviewed and surveyed current and former DSARCs, Installation Victim
Advocates, Unit Victim Advocates, HCPs, and other medical personnel.

       Additionally, to evaluate DoD visibility over sexual assault incidents involving
contractors, we reviewed all criminal investigative files the MCIOs identified as
involving contractor personnel who filed a sexual assault complaint between
January 2005 and December 2007. (See Appendix C for case information).




11
      We did not review Ms. Jones’ complaint as part of the 25 sexual assault investigations involving DoD
      civilian and contractor personnel because DoD criminal investigators did not conduct the investigation.
12
     At the request of the U.S. Attorney’s office, we did not initiate our work on the DoD response until after
      the U.S. Attorney’s office completed their work. The Department of Justice notified us on April 10,
      2009, its work was completed.



                                                        5
IPO2010E001


IV.       FINDINGS AND ANALYSIS
          A. Do DoD policies and procedures address receiving, processing,
          and reporting sexual assault complaints for contractor personnel
          in Iraq and Afghanistan?
        We concluded DoD does not have official policies or procedures for sexual
assault advocacy services and attendant medical services for contractors in Iraq and
Afghanistan. Legislation required that DoD establish a comprehensive sexual assault
policy for Service members. The DoD program is only for Service members and
individuals eligible for treatment in a military medical treatment facility. As a matter of
practice, however, the Military Services have provided Sexual Assault Prevention and
Response Program services to contractor sexual assault complainants in Iraq and
Afghanistan. We did not find any evidence or instance where the Military Services
denied sexual assault response services to contractors.

          1.       Standards
        The applicable standards are from 10 U.S.C. §113 note (2008), “Department of
Defense Policy and Procedures on Prevention and Response to Sexual Assaults Involving
Members of Armed Forces;” DoD Directive (DoDD) 6495.01, “Sexual Assault
Prevention and Response Program,” October 6, 2005; DoD Instruction (DoDI) 6495.02,
“Sexual Assault Prevention and Response Program,” June 23, 2006; Army Regulation
(AR) 600-208, “Army Command Policy,” March 20, 2008; “Department of the Air Force
Instruction 36-6001; Sexual Assault Prevention and Response (SAPR) Program,”
September 29, 2008; Operational Navy Instruction (OPNAVINST) 1752.1B,”The Sexual
Assault Victim Intervention (SAVI) Program,” December 29, 2006; and Marine Corps
Order (MCO) 1752.5, “Sexual Assault Prevention and Response Program,” February 05,
2008. These standards are detailed in Appendix B.

          2.       Facts
         DoD Policies and Procedures. In examining the DoD Sexual Assault Prevention
and Response Program, we interviewed SAPRO officials, Military Service Sexual
Assault Prevention and Response Program officials, deployed commanders and their
staffs, and current and former deployed SARCs, DSARCs, and VAs from Iraq and
Afghanistan. Our specific focus was to determine how DoD personnel responded to,
processed, and referred for investigation, sexual assault complaints involving U.S.
contractor employees.

      In October 2004, Congress passed legislation 13 requiring DoD to develop a
comprehensive policy on the prevention and response to sexual assaults involving

13
     “Ronald W. Reagan National Defense Authorization Act for Fiscal Year 2005, 108 Pub. L. 375,
     118 Stat. 1811, div. A, title V. §577 Department of Defense Policy and Procedures on Prevention and
     Response to Sexual Assaults Involving Members of the Armed Forces, Oct. 28, 2004, 118 Stat. 1926
     (10 U.S.C. §113 note), as amended by National Defense Authorization Act for Fiscal Year 2006, 109


                                                     6
IPO2010E001


Service members. The policy was to provide a foundation for DoD to improve sexual
assault prevention, enhance support to victims, and increase reporting and accountability
for active duty Service members. The legislation also required a restricted reporting
option for Service members.

        In addition, the law required that the Military Services develop or modify
regulations to include a program promoting sexual assault awareness; provide victim
advocacy and intervention services for Service members, at home and in deployed
locations; and establish procedures for Service members to follow after a sexual assault
incident. DoD promulgated its Sexual Assault Prevention and Response program
guidance and established the SAPRO to address sexual assault policy.

        The SAPRO, under direction from the Under Secretary of Defense (Personnel and
Readiness), is the DoD proponent for sexual assault policy and oversight. The SAPRO
serves as the single point for responsibility and oversight in sexual assault policy,
providing guidance to DoD components and resolving issues common to the Military
Services and joint commands.

        The legislation required, and DoD guidance established, sexual assault prevention
and response capabilities specifically for Service members. As such, SAPRO focused its
sexual assault policies on active duty Service members only. In October 2005, DoD
published a directive, and in June 2006, published an implementing instruction
establishing DoD policy and procedures for sexual assault response for Service
members. 14 Also in June 2006, DoD published new instructions establishing two sexual
assault reporting options for Service members – those for restricted and unrestricted
reporting. 15 DoD procedures required the Military Services to establish an around-the-
clock sexual assault response capability for Service members, regardless of their location,
that would ensure optimal and safe administration of unrestricted and restricted reporting
options, with appropriate protection, medical care, counseling and advocacy.

        The Sexual Assault Prevention and Response Program provides an unrestricted
and restricted reporting option. An unrestricted report occurs when a Service member
complains about a sexual assault and desires medical treatment, counseling, and an
official investigation. A restricted report occurs when a Service member complains about
a sexual assault but does not wish to trigger an official investigation. When notified
about either type report, the SARC immediately assigns a victim advocate. Additionally,



     Pub. L. 163, 119 Stat. 3136, div. A, title V, §596(c) Additional Matters for Annual Report on Sexual
     Assaults, Jan. 6, 2006, 119 Stat. 3283 (10 U.S.C. §113 note).”
14
     DoDD 6495.01 and DoDI 6495.02, “Sexual Assault Prevention and Response Program.”
15
     DoDD 6495.01 allows a Service member to disclose confidentially the details of a sexual assault to
     specified individuals and receive medical treatment, counseling, and advocacy services without
     triggering an investigation. With unrestricted reporting, the individual reports the sexual assault to law
     enforcement, and the complaint may be used to initiate an investigation. This Directive formally
     implemented the Restricted and Unrestricted reporting options that had been established by a Directive
     Type Memorandum from the Under Secretary of Defense (Personnel and Readiness) in June 2005.



                                                        7
IPO2010E001


a healthcare provider may conduct a sexual assault examination at the complainant’s
request.

        DoD, however, has not established policies or procedures for receiving,
processing, or reporting sexual assault complaints from contractor personnel or data
concerning such events. The SAPRO Senior Policy Advisor verified that DoD does not
have a policy addressing sexual assault advocacy services for complaints from contractor
personnel. She said DoD focused specifically on active duty Service members when
establishing the Sexual Assault Prevention and Response Program. As a result, sexual
assault services are currently available only to active-duty Service members and those
persons eligible to receive treatment in military medical treatment facilities.

        Contractor employees in Iraq and Afghanistan are only authorized to receive
emergency care in military medical treatment facilities. 16 Consequently, there is no
requirement to provide them sexual assault services and advocacy programs. However,
the sexual assault prevention and response personnel and medical officials we
interviewed considered sexual assault medical treatment and follow-on forensic
examinations as emergency care, and routinely provided those services to contractor
personnel.

        The SAPRO Senior Policy Advisor told us there had been some effort, in
coordination with the Military Services’ Sexual Assault Prevention and Response
Program officials, to draft policy language expanding services to include deployed
contractor personnel. She said expanding the program to contractors would require
revisions to the Federal Acquisition Regulation and Defense Federal Acquisition
Regulation, as well as considerations for international and contracting laws.

        Sexual Assault Prevention and Response Services Provided to Deployed
Contractor Personnel. The Military Services provided sexual assault response services to
civilian personnel throughout Iraq and Afghanistan regardless of their employment status.
Military Service Sexual Assault Prevention and Response Program managers told us
SAPRO had not provided guidance concerning treatment or advocacy services for
contractor sexual assault complainants. Program managers told us despite the lack of
SAPRO guidance, contractors were provided these services because it was the right thing
to do. Military Service Sexual Assault Prevention and Response Program managers
considered the program a commander’s program, wherein each commander implements
the program based on necessary victim care and available resources.

        We examined sexual assault prevention and response policies for the Military
Services (Army, Navy, Air Force, and Marine Corps) to determine how they implement
DoD sexual assault policy guidance and provide treatment to civilians in deployed
locations, and how information on advocacy services is collected and reported. Each

16
     Defined in DoDI 3020.41, “Contractor Personnel Authorized to Accompany the U.S. Armed Forces”,
     October 3, 2005, paragraph 4.8.2, as resuscitative care, stabilization, hospitalization at Level III Military
     Treatment Facilities, and assistance with patient movement in emergencies where loss of life, limb, or eyesight
     could occur.



                                                          8
IPO2010E001


Service has published policy guidance implementing the DoD Sexual Assault Prevention
and Response Program.

        As previously noted, DoD did not address the aspects of sexual assault prevention
and response services for other categories of complainants such as contractor and civilian
personnel. This has created inconsistency in the Military Services’ Sexual Assault
Prevention and Response Programs regarding who is eligible for services. For example,
the Army has included all Army personnel, Army civilians, and family member
dependents. The Air Force has included active duty personnel and Air Force civilian
employees. The Marine Corps has included all military personnel, regardless of Service
branch, and Marine Corps civilians, including Marine Corps contractor personnel. The
Navy has included all Service members, all family members, military retirees, and DoD
civilian personnel, including DoD contractors.

        We interviewed or surveyed 133 Sexual Assault Prevention and Response
personnel, 17 including Service program managers, Sexual Assault Review Board
members, current and recently deployed SARCs, and VAs at 25 different locations. The
consensus among these individuals was that the current DoD sexual assault prevention
and response policy is for Service members only, and is not applicable to contractor or
civilian employees. However, they were aware that in Iraq and Afghanistan, the practice
has been that contractor and civilian employees who report a sexual assault are provided
sexual assault response services. Such services include necessary medical treatment,
forensic examinations, and the official investigative process. Those interviewed told us
they would provide services because they considered it the right thing to do. There was
also a consensus that DoD lacks guidance concerning sexual assault complainants who
are not active duty Service members.

        Data indicate the Army provides most of the sexual assault services in Iraq and
Afghanistan. The Army’s Sexual Assault Prevention and Response Program is
implemented in AR 600-20, “Army Command Policy.” Although not addressed in
policy, the Army routinely provided sexual assault response services to contractors in
Iraq and Afghanistan. We interviewed the Multi National Forces-Iraq (MNF-I) SARC
deployed in 2005, and the current MNF-I SARC. They told us the Military Services
provided sexual assault response services to contractors. The current MNF-I SARC told
us she recently included language in the MNF-I Standard Operating Procedure providing
for sexual assault response services for deployed contractors.

       We surveyed DSARCs 18 in Iraq regarding sexual assault services then available
for U.S. contractor personnel. Of the respondents, 50 percent stated they had provided
sexual assault response training to deployed civilians or contractors. A total of
50 percent of respondents said they would offer a contractor complainant the same
services offered to a Service member, while 50 percent were either waiting for policy
guidance, or could not answer based on not having had a civilian or contractor sexual

17
     Includes Army, Navy, Air Force, and Marine Corps personnel.
18
     Army, Navy, Air Force, and Marine Corps DSARCs were sent a detailed survey questionnaire.



                                                   9
IPO2010E001


assault complaint. A total of 90 percent of respondents opined that civilians and
contractors would receive victim services.

        Additionally, interviews with the Combined Joint Task Force 101
(Afghanistan) DSARC and the Afghanistan DSARC revealed they had expanded their
Sexual Assault Prevention and Response Programs to include civilians and contractors
through training efforts and by providing DSARC point of contact information to
civilians and contractors.

        Realizing there was no formal policy on sexual assault response assistance to
civilian sexual assault complainants, the Afghanistan DSARC coordinated with local
commanding officers to provide services to civilians and contractors. Both Afghanistan
DSARCs acknowledged there was no DoD or local command guidance for providing
victim services or sexual assault prevention and response training to civilians or
contractors. However, they initiated an effort to include contractors in the training
program and approximately 60 percent of the Defense contractor companies volunteered
to participate.

        We also surveyed other DSARCs deployed throughout Afghanistan and asked
how they would handle a contractor sexual assault complainant. All respondents
indicated civilian and contractor sexual assault complainants would receive victim
services and a victim advocate would be assigned to help the complainant.

        Contractor Sexual Assault Data Collection and Reporting. SAPRO does not
collect information on contractor sexual assault complaints. Therefore, local SARCs had
no administrative process to report such services to higher headquarters. SAPRO only
tracks sexual assault data where the complainant or accused is an active duty Service
member. Although the Military Services provided sexual assault response services to
deployed contractor personnel, SAPRO does not routinely receive sexual assault program
information on contractor sexual assault complainants from Military Service Sexual
Assault Prevention and Response Program officials.

        We requested sexual assault program data on 25 contractor sexual assault
complaints the MCIOs reported to us. 19 Neither SAPRO nor Military Service Sexual
Assault Prevention and Response Program officials were able to give us any program
office information regarding the complaints, such as medical treatment or advocacy
services provided.

       The most reliable information on contractor sexual assault complaints we
obtained was from MCIO criminal investigative reports. We found, through information
obtained from our interviews and reviews of MCIO case files, instances where military
medical treatment facilities provided sexual assault services for contractors, such as
medical treatment, sexual assault forensic examinations and advocacy services.
However, we were unable to validate advocacy services such as counseling or follow-on
medical or mental health treatment. Records are not routinely maintained on contractors

19
     Discussed later in the report on page 13.



                                                 10
IPO2010E001


and there was no mechanism to store, retain, retrieve, or report the sexual assault program
information to higher headquarters.

       3.      Discussion
       DoD Directive 6495.01, paragraph 4.1 states, “it is DoD policy to eliminate
sexual assault within DoD by providing a culture of prevention, education and training,
response capability, victim support, reporting procedures, and accountability that
enhances the safety and well-being of all its members.”

        We found, however, that DoD policy limited sexual assault response to Service
members and those eligible for treatment in military medical treatment facilities.
Military Service officials consider the SAPR program a commander’s program applicable
to active duty Service members only. The DoD Sexual Assault Prevention and Response
Program and supplemental Military Service policies are military centric, i.e., the
protocols, and reporting and treatment options, are uniquely suited to active duty Service
members, including activated National Guard and Reserve personnel. SAPRO and
Military Services sexual assault program officials are attempting to address the lack of
sexual assault prevention and response policy for others comprising the total DoD force.

        We concluded from interviews with deployed commanders and Sexual Assault
Prevention and Response Program personnel, as well as information in criminal
investigative files, that despite current policy limitations, local commanders provided
services and care to contractor sexual assault complainants, regardless of their status,
though they had no regulatory requirement or authority to do so. Additionally, we found
commanders in Iraq and Afghanistan developed local sexual assault response practices,
often in reaction to specific incidents, and provided some sexual assault services to
contractors, consistent with available resources.

         We also concluded that, from mid-2005 to present, SARCs in Iraq and
Afghanistan provided care and support to deployed contractors who reported sexual
assaults. We found that when a deployed contractor employee reported a sexual assault
to military officials, medical care was provided; SARC or Employee Assistance Program
assistance was offered to help facilitate victim advocacy services, and a criminal
investigation was initiated. While Military Service SARCs provide sexual assault
response program services to sexual assault complainants regardless of employment
status, they do so without DoD regulatory authority.

       B. Are military medical officials required to report sexual assault
       complaints to law enforcement?
       We concluded no DoD or Military Service policy requires medical officials or
HCPs to report sexual assault complaints to law enforcement authorities. DoD policy
only requires medical officials to notify Sexual Assault Prevention and Response
program personnel.




                                            11
IPO2010E001


          1.       Standards
        The applicable standards are from 10 U.S.C. §113 note (2008), “Department of
Defense Policy and Procedures on Prevention and Response to Sexual Assaults Involving
Members of Armed Forces;” DoD Directive (DoDD) 6495.01, “Sexual Assault
Prevention and Response Program,” October 6, 2005; DoD Instruction (DoDI) 6495.02,
“Sexual Assault Prevention and Response Program,” June 23, 2006; Army Regulation
(AR) 600-208, “Army Command Policy,” March 20, 2008; “Department of the Air Force
Instruction 36-6001; Sexual Assault Prevention and Response (SAPR) Program,”
September 29, 2008; Operational Navy Instruction (OPNAVINST) 1752.1B,”The Sexual
Assault Victim Intervention (SAVI) Program,” December 29, 2006; Marine Corps Order
(MCO) 1752.5, “Sexual Assault Prevention and Response Program,” February 05, 2008;
and DoD Pamphlet, “Healthcare Provider’s Role in Responding to Sexual Assault.”
These standards are detailed in Appendix B.

          2.       Facts
       Requirement to Notify Law Enforcement. DoD Pamphlet, “Healthcare Provider’s
Role in Responding to Sexual Assault,” documents the HCP’s role as notifying the SARC
which allowed:
               the SARC to explain to patients their two reporting options, as well as any
               available treatment and counseling services.      The provider’s reporting
               requirement is met once the SARC has been contacted. Further reporting to law
               enforcement will be handled by the SARC should the patient choose to make an
               Unrestricted Report. 20

       To comply with DoD policy, the individual Military Services implemented
program policy. Services policies mirrored the DoD policy, including the two reporting
options for active duty Service member complainants, and the requirement for the SARC
or VA to report the sexual assault complaint to law enforcement for investigation.

        Interviews disclosed that military medical treatment facility personnel followed
standard protocols in emergency rooms when a sexual assault complainant came into a
treatment facility. The admission clerk immediately notified the on-call VA, SARC, or
the Sexual Assault Care Coordinator. 21 If the complainant was an active Service
member, the SARC or VA advised the complainant about their reporting options. Law
enforcement was only notified if the Service member chose to make an unrestricted
report. If the complainant was a civilian or contractor, and a SARC was notified, the
SARC contacted law enforcement.

      We also interviewed a number of deployed personnel, including SARCs, VAs,
and HCPs, including obstetricians and gynecologists, as well as Sexual Assault

20
     The DoD Pamphlet mentions only “patients” and does not make distinctions between active duty
     military personnel with restricted and unrestricted reporting options and other patients who have only
     an unrestricted reporting requirement.
21
     Sexual Assault Care Coordinators are available only at U.S. Army installations.



                                                      12
IPO2010E001


Prevention and Response Program personnel. It was clear from our interviews that first
responders knew sexual assaults involving civilian or contractor personnel required law
enforcement notification. Regardless of a complainant’s employment status, however,
they provided medical care at military medical treatment facilities.

        We reviewed sexual assault criminal investigations involving civilians and
contractors that occurred in Operations Enduring and Iraqi Freedom areas of operation.
Although we could not locate primary Sexual Assault Prevention and Response Program
records of services, the criminal investigative files indicated the complainant was
provided sexual assault response program and/or medical services. In the criminal
investigations we reviewed, medical officials did not notify law enforcement, and as we
noted, they were specifically told that such reporting was not their responsibility.

        Reporting and Law Enforcement Investigation. Sexual assaults involving
contractors in Iraq and Afghanistan were investigated when referred to law enforcement
agencies. We reviewed sexual assault investigations involving contractors and civilians
that were reported to military law enforcement authorities. We believed this review
would assist us in assessing areas such as the medical official’s response, Sexual Assault
Forensic Evidence (SAFE) kit 22 collection and chain of custody, and the collaboration
that occurred between the various military authorities involved.

         We obtained the 25 sexual assault criminal investigation files involving civilians
and contractors participating in Operations Enduring and Iraqi Freedom Areas of
Operations reported in Calendar Years 2005 through 2007. The United States Army
Criminal Investigation Command (USACIDC) had 22 investigations. The Naval
Criminal Investigative Service (NCIS), together with the Marine Corps Criminal
Investigation Division (MCCID), identified three additional investigations. The Air
Force Office of Special Investigations (AFOSI) did not have investigations meeting our
criteria.

        We reviewed the investigations to determine: how the respective MCIOs
received complaints; whether Sexual Assault Prevention and Response Program services
were provided; whether Victim Witness Assistance Program protocols were followed
(i.e., whether complainants were given DoD Forms 2701, “Initial Information for Victims
and Witnesses of a Crime”), and to assess compliance with evidence collection,
processing, and chain of custody guidance. 23

       The sexual assault complaints included 11 rapes, 13 indecent assaults, and
1 sodomy. Of the 25 allegations, 15 (60 percent) were substantiated, 4 (16 percent) were
unsubstantiated, and 6 (24 percent) were undetermined due to insufficient evidence. (See
Appendix C for detailed case information).


22
     The SAFE kit contains items used by medical personnel for gathering and preserving physical evidence
     following a sexual assault.
23
     We reviewed the investigations to evaluate DoD sexual assault response policies and procedures for
     contractors. Our review did not did not evaluate the thoroughness of the investigations.



                                                    13
IPO2010E001


        Despite the lack of program guidance for contractors and civilians, the
investigative case files indicated that when medical treatment was required or requested,
it was provided. Additionally, in several instances, the case files indicated the contractors
and civilians were given SARC and/or VA assistance. Chain of custody was established
for evidence when collected, and evidence was processed in accordance with regulatory
guidelines.

       3.      Discussion
        DoD Pamphlet, “Healthcare Provider’s Role in Responding to Sexual Assault,”
February 2006, gives very specific guidance that HCPs will not notify law enforcement.
This guidance directs HCPs to notify the installation SARC and provides that the health
care provider’s reporting requirement is met once the SARC has been notified.

       C. Do military medical officials comply with standards regarding
       forensic examinations and medical records maintenance?
       As a result of interviews and reviews of 25 investigations, we concluded that
medical officials complied with standards regarding the collection, preservation, and
chain of custody, for SAFE kits collected as evidence.

       We also concluded that the Military Services complied with the DoD policy
governing evidence generally, as well as for collecting SAFE kits.

       1.      Standards
        The applicable standards are from 10 U.S.C. §113 note (2008), “Department of
Defense Policy and Procedures on Prevention and Response to Sexual Assaults Involving
Members of Armed Forces;” DoD Directive (DoDD) 6495.01, “Sexual Assault
Prevention and Response Program,” October 6, 2005; DoD Instruction (DoDI) 6495.02,
“Sexual Assault Prevention and Response Program,” June 23, 2006; Army Regulation
(AR) 600-208, “Army Command Policy,” March 20, 2008; “Department of the Air Force
Instruction 36-6001; Sexual Assault Prevention and Response (SAPR) Program,”
September 29, 2008; Operational Navy Instruction (OPNAVINST) 1752.1B,”The Sexual
Assault Victim Intervention (SAVI) Program,” December 29, 2006; Marine Corps Order
(MCO) 1752.5, “Sexual Assault Prevention and Response Program,” February 05, 2008;
and Department of Justice, Office of Violence against Women, “National Protocol for
Sexual Assault Medical Forensic Examinations,” September 2004; Army Regulation
195–5, “Criminal Investigation, Evidence Procedures,” June 25, 2007; Air Force OSI
Manual 71-122, “Criminal Investigations,” August 13, 2007; and Navy Criminal
Investigative Service Manual 3, “Criminal Investigations,” December 2006. These
standards are discussed below and detailed in Appendix B.

       2.      Facts
       We interviewed several current and former individuals involved in the Sexual
Assault Prevention and Response Program, ranging from SARCs (installation (CONUS)


                                             14
IPO2010E001


and deployed), VAs (installation and unit), Military Service Sexual Assault Prevention
and Response Program personnel, and medical officials. A consensus from the
interviews was that normal operating procedures for a civilian or contractor sexual assault
complainant would follow unrestricted reporting guidelines. An unrestricted report
would include law enforcement notification. The interviewees indicated that, to the best
of their knowledge, if a civilian or contractor complainant consented and a SAFE kit was
collected, it would be turned over to law enforcement. While none of the individuals we
interviewed had dealt specifically with a sexual assault incident involving a civilian or
contractor, each stated an understanding that law enforcement would be notified about a
sexual assault complaint from a contractor or civilian.

        From interviews with medical officials who were previously deployed, we
determined the collection and custody process for SAFE kits was not clearly established
for civilian or contractor sexual assault victims in 2005, when the Sexual Assault
Prevention and Response Program policy was first established. According to one
hospital commander, when he was deployed to Iraq, the procedure included a HCP
performing the sexual assault examination, collecting any evidence, and turning the kit
over to the Patient Administration Division for transfer to law enforcement. He said the
informal protocol identified the Patient Administration Division as the responsible entity
for the kit’s disposition.

        In determining accountability and responsibility for SAFE kits in
civilian/contractor sexual assault reports, we reviewed sexual assault investigations
involving civilian or contractor complainants. In those investigations, nine kits were
collected. An examination of those nine cases revealed the collection, security,
preservation, and chain of custody conformed to regulatory requirements. We did not
identify any instance where evidence should have been collected, but was not.

       3.      Discussion
         In accordance with DoD policy, the Military Services implemented regulatory
requirements for collecting Sexual Assault Forensic Examination kits in cases of
restricted and unrestricted reporting. Per DoD requirements, the kit was collected, turned
over to law enforcement officers, and stored (1 year for restricted reports). The Navy,
Air Force, and Marine Corps required their respective MCIOs to receive and store the
kits. The Army required the Provost Marshal Office to do so.

        Based on interviews and information obtained from criminal investigative files,
we determined that HCPs complied with DoD and Military Service policies for collecting
SAFE kits and transferring evidence to law enforcement. First responders knew the
requirement to notify law enforcement in sexual assault incidents involving contractors
and civilians. They also knew the importance of evidence collection and chain of
custody. We did not find any contractor or civilian sexual assault complaint that was
reported to law enforcement where evidence collection procedures, if appropriate, were
not followed.




                                            15
IPO2010E001


          D. What are the dispositions of complainants and accused
          personnel during the investigative process when sexual assault
          complaints involve contractor personnel?
        We concluded that available records did not allow us to determine the disposition
of the complainant or the accused during the investigative process.

          1.       Standards

          None

          2.       Facts
         DoD MCIO Sexual Assault Case File Data. As previously noted, we obtained a
total of 25 sexual assault military criminal investigation files involving civilians and
contractors in Iraqi and Afghanistan that were reported in Calendar Years 2005 through
2007. The sexual assault complaints included 11 rapes, 13 indecent assaults, and
1 sodomy. Of the 25 allegations, 15 were substantiated, 4 were unsubstantiated, and 6
were undetermined due to insufficient evidence. Information in the case files provided a
disposition on the accused (e.g., terminated, reassigned or received non-judicial
punishment) once the allegation was adjudicated. The case files did not contain
information that allowed us to determine the disposition of the accused or the
complainant during the investigative process.

        DoD Contractor Company Sexual Assault Case File Data. Additionally, we
identified 10 companies with current DoD contracts. 24 These companies provided a wide
range of services including contracts to rebuild and restore the Iraqi electrical grids;
product support and training in the areas of intelligence and police training; construction
management force protection, public works; and facility maintenance. The companies
reported approximately 70 to 2500 employees deployed to Iraq and Afghanistan
supporting DoD operations.

        We requested the companies provide us information on any sexual assault 25 that
occurred in Iraq and Afghanistan involving their employees as either the victim or the
accused for Calendar Years 2005 through 2007. Specifically, we requested they provide
the following information:

24
     The 10 contractors were selected based on the following criteria: U.S. based companies; contracting
     actions awarded in FY 2006 and FY 2007; and combined FY 2006 and FY 2007 contracting actions
     equal to or exceeded $250 million. The contractors reviewed were Kellogg, Brown, and Root Services,
     Inc. (KBR); AECOM; Tetra Tech, Inc.; Parsons Corporation; Innovative Technical Solutions; Fluor
     Corporation; Readiness Management Support, LC; Environmental Chemical Corporation;
     L-3 Communications; and ITT Corporation.
25
     We provided a comprehensive list of definitions for sexual crimes and sexual misconduct as prescribed
     in the Uniform Code of Military Justice, Article 120, “Rape, sexual assault, and other sexual
     misconduct,” (2008 Edition), 10 U.S.C. 920.”



                                                    16
IPO2010E001


          • Date and location of sexual assault complaint;
          • Entity that received the complaint and date received;
          • Nature of the sexual assault complaint;
          • Description of sexual assault services provided complainant and who provided
          the services (e.g., military or civilian employee assistance counselor);
          • Type of investigation conducted (e.g., criminal or administrative) and by
          whom;
          • Actions taken to physically separate accused and complainant during the
          investigation;
          • Investigation results (e.g., allegation substantiated or not substantiated); and
          • Judicial or Administrative action taken.

        Nine of the 10 companies reported they had no sexual assault complaints for the
time period we requested. One company, KBR, provided us with information on 5 rape
complaints. 26 Four of the 5 complaints resulted in a criminal investigation. Three complaints
had been reported to and investigated by military law enforcement; 1 complaint was reported
to and investigated by the Department of State, Bureau of Diplomatic Security, and 1
complaint was investigated by KBR per their Code of Business Conduct procedures. (See
Appendix D for case information).

          3.       Discussion
         Information from the criminal investigative case files we reviewed, and the sexual
assault data we received from the contractor, provided a final disposition on the accused
(e.g., terminated, returned to home country, received non-judicial punishment) once the
allegation was adjudicated. However, we were not able to determine the disposition of
the complainant or the accused while the investigation was on-going.


V.        CONCLUSIONS
        The DoD and Military Service policies and procedures for sexual assault
prevention, response, and reporting focus exclusively on Service members who complain
about being sexually assaulted. DoD and some Military Service official policies do not
address civilian or contractor personnel. Additionally, DoD does not have policies or
procedures specific to combat areas. However, the Military Services have procedures
that local commanders have expanded in practice to include deployed contractor sexual
assault complainants. We found anecdotal and substantive evidence that contractors who
reported being sexually assaulted received medical, investigative, and victim advocacy
services.




26
     KBR told us they used the following definition of rape rather than sexual assault, “act of forced, non-
     consensual penetration of any bodily orifice (vaginal, anal, or oral) penetration by a body part or
     inanimate object.”



                                                      17
IPO2010E001


VI.    RECOMMENDATIONS
        We recommend the Under Secretary of Defense (Personnel and Readiness),
establish, and the Military Services implement, policy that will provide an immediate,
response, by trained personnel, for all sexual assaults involving U.S. personnel reported
to DoD facilities.

         We also recommend the Under Secretary of Defense (Personnel and Readiness),
Sexual Assault Prevention and Response Program Office, in coordination with the
Military Services, develop a data system that records data on sexual assault cases
involving civilian and contractor personnel. This data, at minimum, should include the
complainant’s identity, when and where the assault occurred, when the complaint was
filed, the support services requested or provided, when the complaint was referred for
criminal investigation, and the final disposition on the complaint.


VII. MANAGEMENT COMMENTS
      We received management comments from the office of the Under Secretary of
Defense (Personnel and Readiness) on August 27, 2009, concurring with all our
recommendations. The full text management comments are included in Appendix F.




                                            18
IPO2010E001


Appendix A. DoD Response to Jamie Leigh Jones
            Sexual Assault Complaint
        As noted earlier in this report there was no DoD or Military Services policy that
addressed the receiving, processing and reporting of sexual assaults involving contractor
personnel at the time of Ms Jones’ sexual assault complaint in July 2005. Despite the
lack of policy, we concluded that DoD personnel adequately responded to Ms Jones’
complaint.

       Standards:

       Department of Justice, Office of Violence against Women, “National Protocol
for Sexual Assault Medical Forensic Examinations,” September 2004.

      Chapter 6, “Evidence Integrity,” Reference (u) provides specific guidance on
documenting the handling, transfer and storage of evidence:
                Examiners must maintain control of evidence during the exam, while
           evidence is being dried, and until it is in the kit container and sealed (and then
           follow jurisdictional procedures for storing evidence securely or handing it over
           to a duly authorized agent for transfer to a storage site). Documentation should
           continue with each transfer of the evidence to law enforcement, the crime
           laboratory, and others involved in the investigative process. Patients, advocates,
           family members, and other support persons should not handle the evidence.
           Documentation of the chain-of-custody information is vital to ensuring that there
           has been no loss or alteration of evidence prior to trial.

     Medical Command Regulation 40-36, “Medical Facility Management,”
December 23, 2004.

        Paragraph 11, Photographers and Equipment, states photographers should be
familiar with equipment operation and be educated on forensic photography in sexual
assault cases.

       Facts:

        Based on interviews and data review, we determined that during July 2005, Ms.
Jones, a KBR employee deployed to Iraq, and within days of her arrival alleged she was
sexually assaulted by fellow KBR employees. Ms. Jones reported the incident to her
supervisor who then reported the incident to KBR’s Security Office. She was transported
to the 86th Combat Support Hospital, Baghdad, Iraq. She was accompanied by her
supervisor and a physician assistant from the KBR clinic. Ms. Jones was initially triaged
by an emergency room nurse, and later placed in a private room for a sexual assault
examination.




                                                  19
IPO2010E001


      The on-call gynecologist, an active duty Army doctor, performed a sexual assault
examination on Ms. Jones. The doctor used a standard issued SAFE kit and
accompanying forms 27 contained inside the kit to conduct the exam.

       During the examination, the doctor noted some bruising and a scratch on Ms.
Jones. The doctor documented those injuries on the appropriate sexual assault
examination form, and the emergency room medic took approximately 3-5 digital
photographs of those injuries using her personal camera.

        We asked the doctor and the medic about the Medical Command regulatory
requirement that sexual assault photographs be taken by a photographer educated in
forensic photography. They both told us they were not aware of any individual assigned
to the hospital that was trained in forensic photography. The medic told us she recalled e-
mailing the photographs directly to Ms. Jones. She thought she may have also given
copies or perhaps e-mailed the photographs to the doctor. We attempted to obtain copies
of the photographs, but both the medic and the doctor were unable to locate the
photographs.

        According to the doctor, the emergency room nurse, and medic, Ms. Jones said
she was sexually assaulted by 4-5 firemen, and she did not recall the specific details of
the assault until the following morning. The doctor said Ms. Jones indicated the
possibility of one of her assailants putting a “Roofie” (more commonly known as
rohypnol, the “date rape” drug) in her alcoholic drink. Based on this information, the
doctor took urine and blood samples and forwarded them for laboratory examination.

       The doctor told us she followed the SAFE kit protocol in collecting the required
specimens, and reflected her findings on the protocol checklist and on the hospital’s
emergency care and treatment form. After completing the examination, she said she
placed all specimens collected and accompanying forms back into the SAFE kit, sealed it,
and provided the kit to one of the KBR security personnel who had responded to the
hospital. Specifically, regarding the SAFE kit and items, she said:

                “I put them back into the box, resealed it, and as usually in the case of the Iraqi
                security -- I believe they went to the KBR security that was with her [Ms. Jones]
                as the chain of evidence. I think that most civilian contractors, the kit was
                handed off to their security, to the best of my recollection.”

           When asked why she gave the kit to the KBR security personnel she stated:

                “… because they kind of came in and took charge of the people. They kind of
                came in as security personnel and kinda were their own world. So, I think it was
                just assumed that they were going to be the security.”

       When asked if it was standard practice with all contractor personnel to give
evidence to contractor security, the doctor told us this was her assumption. She said

27
     As noted earlier in the report, the kit contains items used by medical personnel for gathering and
      preserving physical evidence following a sexual assault.



                                                        20
IPO2010E001


during her deployment she was not aware of any policies or guidance, written or verbal,
regarding procedures for contractor sexual assault complainants.

           Discussion:

        As reflected earlier in this report, we determined the collection and custody
process for SAFE kits was not clearly established for contractor sexual assault victims
when Ms. Jones reported her sexual assault in July 2005, and DoD sexual assault policy
did not address medical treatment for government contractors. Despite the lack of policy,
our review of this case and the other 25 investigations indicated medical health care
professionals provided adequate medical care to everyone who reported a sexual assault,
including Ms. Jones. The attending doctor told us:
                “There was no guidance given, no. I was under the assumption we treat
                everyone the same. I don’t think we specifically talked about it. I don’t
                think it was ever brought up. But I think just being where we were, we
                took care of a lot of civilians, a lot of Iraqis, a lot of U.S. military.
                Actually, U.S. military is probably 50 percent of what we took care of.
                Nowhere along the way did we ever skimp on care, regardless of who
                they were, or where they came from.”

        When Ms. Jones presented to the emergency room complaining of being sexually
assaulted, the emergency room nurse triaged her, documented her vital signs on an
emergency room intake form, and moved her to a private room. While waiting for her
sexual assault examination to be conducted, Ms. Jones was never left alone; either the
emergency room nurse or medic remained with her. The doctor responded and consulted
with Ms. Jones and obtained her written consent to perform a sexual assault examination.

       We reviewed current policy and interviewed medical officials who responded to
Ms. Jones’ complaint, and determined she received the standard treatment afforded active
duty service members. Ms. Jones was separated from other patients and was examined in
accordance with the Department of Justice, National Protocol for Sexual Assault Medical
Forensic Examinations.

       We also coordinated with Department of State officials at the Bureau for
Diplomatic Security28 and examined Ms. Jones’ Sexual Assault Forensic Examination
kit. Our review disclosed that a proper chain of custody was established and evidence
and documents the doctor originally generated were in the kit. 29

      We determined the SAFE kit had been sealed, a chain of custody was established,
and KBR security officials released the kit to the appropriate law enforcement agency.


28
     Their investigators conducted the criminal investigation of Ms. Jones’ sexual assault complaint.
29
     As noted above, the medic took digital photographs with her personal camera that were not included in
      the SAFE kit.




                                                       21
IPO2010E001


        We contacted the US Attorney's Office (USAO) that conducted the investigation
of Ms. Jones' case, and inquired whether they had identified problems or deficiencies
with the SAFE kit collection, chain of custody, or preservation. The USAO responded
that they had not identified any procedural issues with the collection of evidence that
affected their decision on whether to proceed with legal action regarding Ms. Jones'
sexual assault complaint.

        Although Ms. Jones’ SAFE kit was released to her employer, we found that this
was due to a lack of established policy governing the proper chain of custody of SAFE
kits collected for contractor personnel. We found no specific regulatory guidance for the
time period during which Ms. Jones reported her sexual assault (July 2005), addressing
contractor related sexual assaults and sexual assault examinations in Iraq. The Under
Secretary of Defense (Personnel and Readiness), has directed the Sexual Assault
Advisory Council Policy Subcommittee, to establish policy addressing sexual assault
assistance to contractors at DoD facilities to include deployed locations. In the interim,
deployed commanders have implemented local procedures in theater to care for all sexual
assault complainants.




                                           22
IPO2010E001




Appendix B. Standards

       A. Do DoD policies and procedures address receiving, processing, and
          reporting sexual assault complaints for contractor personnel in Iraq
          and Afghanistan?

       10 U.S.C. §113 note (2008), “Department of Defense Policy and Procedures
on Prevention and Response to Sexual Assaults Involving Members of Armed
Forces.”

        The law required the DoD to develop a comprehensive policy on the prevention
of, and response to, sexual assaults involving members of the Armed Forces. The law
stipulated the policy must be applicable to, and uniformly implemented by the Military
Departments. Elements of the law required the comprehensive policy to address, at
minimum, the following:
       •   sexual assault prevention measures, and education and training on sexual
           assault prevention and response;
       •   investigation of complaints by command and law enforcement personnel,
       •   medical treatment for victims;
       •   confidential incident reporting;
       •   victim advocacy and intervention;
       •   commander oversight on administrative and disciplinary actions responding to
           substantiated sexual assault incidents;
       •   disposition of victims of sexual assault, including review by appropriate
           authority of administrative separation actions involving sexual assault victims;
       •   disposition of members of the Armed Forces accused of sexual assault;
       •   liaison and collaboration with civilian agencies on the provision of services to
           sexual assault victims; and
       •   uniform data collection on sexual assault incidences and on disciplinary
           actions taken in substantiated sexual assault cases.

        The law further required the Military Departments to prescribe or modify
regulations to conform to the DoD comprehensive policy, and ensure that such policies
and procedures included the following elements:
       •   a program to promote awareness of sexual assault incidents involving
           members of the Armed Forces;


                                              23
IPO2010E001


       •   a program to provide victim advocacy and intervention for Armed Forces
           members who are sexual assault victims; the program shall make available, at
           home stations and in deployed locations, trained advocates who are readily
           available to intervene on behalf of such victims;
       •   procedures for members of the Armed Force to follow in the case of an
           incident of sexual assault involving a member of such Armed Force,
           including—
              specification of the person or persons to whom the complaint should be
               reported;
              specification of any other person whom the complainant should contact;
              procedures for the preservation of evidence;
              procedures for confidential reporting and for contacting victim advocates;
              procedures for disciplinary action in cases of sexual assault by members of
               the Armed Force concerned;
              other sanctions authorized to be imposed in substantiated cases of sexual
               assault; whether forcible or nonforcible, by members of the Armed Force
               concerned; and
              training on the policies and procedures for all members of the Armed
               Force concerned, including specific training for members of the Armed
               Force concerned who process sexual assault complaints against members
               of such Armed Force.

      DoD Directive (DoDD) 6495.01, “Sexual Assault Prevention and Response
Program,” October 6, 2005.

       This Directive applies to all DoD Components, the Military Departments and
Combatant Commands, and established the DoD comprehensive policy on prevention
and response to sexual assaults.

       Paragraph 4, “Policy,” Subparagraph 4.1., states that “it is DoD policy to
eliminate sexual assault within the Department of Defense by providing a culture of
prevention, education and training, response capability, victim support, reporting
procedures, and accountability that enhances the safety and well-being of all its
members.”

      DoD Instruction (DoDI) 6495.02, “Sexual Assault Prevention and Response
Program,” June 23, 2006.

      The Instruction consolidated the DoD sexual assault program policy under the
Under Secretary of Defense (Personnel and Readiness), Sexual Assault Prevention and
Response Program Office (SAPRO), for implementation.

        Paragraph 2, “Applicability and Scope,” Subparagraphs 2.1., 2.2., and 2.4., apply
this Instruction to the DoD components, National Guard and Reserve members who are


                                           24
IPO2010E001


sexually assaulted when performing active service and inactive duty training, and any
person who is a sexual assault victim and eligible to receive treatment in Military
Medical Treatment Facilities.

       The Directive and Instruction constitutes the DoD policy on sexual assault
prevention and response.

       Army Regulation 600-20, “Army Command Policy,” March 20, 2008.

       This Regulation implements the DoD Sexual Assault and Prevention and
Response program for the Department of the Army. Chapter 8, “Sexual Assault
Prevention and Response Program,” provides the policy guidance for the Army’s Sexual
Assault Prevention and Response program. Subparagraph 8-1 describes the program
purposes and goals. It states “the goals of the Sexual Assault Prevention and Response
Program are to create a climate that minimizes sexual assault incidents, which impact
Army personnel, Army civilians, and family members, and, if an incident should occur,
ensures that victims and subjects [accused] are treated according to Army policy.”

      Air Force Policy Directive 36-60, “Sexual Assault Prevention and Response
Program,” March 28, 2008.

        This Directive implements the DoD Sexual Assault and Prevention and Response
program for the Department of the Air Force, and applies to all levels of command and
all Air Force organizations, including Active Duty, civilians, Air Force Academy, Air
National Guard, and Air Force Reserve components while in Federal service. The
directive provides policy and assigns responsibility for preventing and responding to
sexual assault. It also establishes command relationships, authorities, and
responsibilities. Chapter 1 “Policy,” Subparagraph 1.1., states it is Air Force policy to
“eliminate sexual assault within the Department of the Air Force by fostering a culture of
prevention, providing education and training, response capability, victim support,
reporting procedures, and accountability that enhances the safety and well-being of all its
members.”

      “Department of the Air Force Instruction 36-6001; Sexual Assault
Prevention and Response (SAPR) Program,” September 29, 2008.

This instruction implements Air Force Policy Directive (AFPD) 36-60, 28 March 2008,
Sexual Assault Prevention and Response (SAPR) Program, and Department of Defense
Instruction (DoDI) 6495.02, 23 June 2006, Sexual Assault Prevention and Response
(SAPR) Program Procedures. It assigns responsibility for the prevention of and response
to sexual assault and establishes command relationships, authorities and responsibilities
in support of the policy. This instruction applies to all levels of command and all Air
Force organizations including the Active Duty, Air Force government civilian employees,
Air Force Academy, and Air National Guard and Air Force Reserve components while in
Federal service. It addresses the requirements of the Ronald W. Reagan National Defense
Authorization Act for fiscal year 2005, P.L. 108-375, as amended and supplemented, 28




                                            25
IPO2010E001


October 2004, Section 577(e). Failure to observe the prohibitions and mandatory
provisions of this instruction in paragraphs 2.12.1., regarding the requirement
to report sexual assaults, and paragraph 3.1.9., and its sub paragraphs regarding
safeguarding covered communications, is a violation of Article 92, Uniform Code of
Military Justice (UCMJ). Violations may result in administrative disciplinary action
without regard to otherwise applicable criminal or civil sanctions for violations of related
laws. Violations by civilian employees may result in administrative disciplinary action
without regard to otherwise applicable criminal or civil sanctions for violations of related
laws. Violations by contactor personnel will be handled according to local laws and the
terms of the contract.

       Operational Navy Instruction 1752.1B,”The Sexual Assault Victim
Intervention (SAVI) Program,” December 29, 2006.

        This Instruction implements the DoD Sexual Assault and Prevention and
Response program for the Department of the Navy. Chapter 6 “Policy,” states “the goal
of the Navy is to reduce sexual assault by providing a culture of prevention, education,
and training response capability, victim support, reporting procedures, and accountability
that enhances the safety and well-being of all.” Chapter 7 “Applicability,” applies the
sexual assault program to:

       a. Active duty members of the Military Services (Army, Navy, Air Force, Marine
Corps, and Coast Guard, when operating as a Service in the Navy,) who are eligible to
receive treatment in a Military Treatment Facility and their legal family members;

        b. Members of the National Guard and Reserve component of the Military
Services and their legal family members when performing active services and inactive
duty training;

        c. On a space-available basis, retired members of the Military Services and their
legal family members;

       d. Non-foreign-hire DoD civilian employees in overseas locations, and their legal
family members, for services that are not available in the local community; and

        e. Victims of sexual assault incidents occurring under Department of the Navy
jurisdiction are eligible, regardless of affiliation, for available advocacy services on a
humanitarian basis.

      Marine Corps Order (MCO) 1752.5, “Sexual Assault Prevention and
Response Program,” February 05, 2008.

       This Order implements the DoD Sexual Assault and Prevention and Response
Program for the Marine Corps and defines and assigns specific responsibilities
throughout the Marine Corps for sexual assault prevention and response. It applies to all
Marines, Marine Reservists (active duty/drilling status), Armed Forces personnel
attached to or serving with Marine Corps commands, civilian Marines, and contractors
employed by the Marine Corps. Paragraph 1, “Purpose,” “establishes Marine Corps


                                             26
IPO2010E001


policy and guidance to address specific sexual assault victim needs and related issues by
defining sexual assault and required reporting procedures; establish procedures to protect
the victim’s privacy; and establish a mandatory, standardized sexual assault victim
assistance program for Service members.” Paragraph 7, “Applicability,” applies the
guidance to the Marine Corps Total Force.

      Multi National Forces –Iraq /Multi National Corps-Iraq Human Relations &
Equal Opportunity Program Manager and Theater Deployable Sexual Assault
Response Coordinator Draft Standard Operating Procedures, “Multi-National
Corps-Iraq Sexual Assault Prevention and Response Program.”

         This draft Standard Operating Procedure implements the Multi-National Corps-
Iraq Sexual Assault Prevention and Response Program specifically for the Iraqi area of
operations. The guidance states “the program’s purpose is to help prevent sexual assault
in the Iraq area of operation, explain commander responsibilities, and provide
information on available resources to help commanders if a sexual assault occurs.”

        Further, Paragraph 11b, directs that “any Federal civilian employee or contract
employee who is an alleged victim of sexual assault, will be offered a preliminary
medical evaluation at the closest Military Treatment Facility.” It goes on to say “law
enforcement officers will be contacted immediately and law enforcement procedures will
be strictly enforced.”

       B. Are military medical officials required to report sexual assault
          complaints to law enforcement?

      DoD Pamphlet, “Healthcare Provider’s Role in Responding to Sexual
Assault,” February 2006.

       The pamphlet directs HCP’s to take the following action when managing
incidents of sexual assault:
           “Reporting and Care”….

                In most situations, the military requires providers to notify law enforcement
           when patients report being the victim of a crime. However, in cases of sexual
           assault, providers should NOT notify law enforcement. Instead, you should
           notify the Sexual Assault Response Coordinator (SARC) for your installation.”

       C. Do military medical officials comply with standards regarding
          forensic examinations and medical records maintenance?
      DoD Directive 6495.01 “Sexual Assault Prevention and Response Program,”
October 6, 2005.

       The Directive defines the “Sexual Assault Forensic Examination” as:

           The medical examination of a sexual assault victim under circumstances and
           controlled procedures to ensure the physical examination process, and the


                                                  27
IPO2010E001

           collection, handling, analysis, testing, and safekeeping of any bodily specimens,
           meet the requirements necessary for use as evidence in criminal proceedings.

      DoD Instruction 6495.02, “Sexual Assault Prevention and Response Program
Procedures,” Jun 23, 2006.

       Additionally the Instruction discusses the procedures for the collection of Sexual
Assault Forensic Examination kits:

                Sexual assault reporting procedures require that the SARC be notified of all
           incidents of reported sexual assault. The SARC, in turn, will assign a VA to
           assist the victim. The SARC or VA shall also inform the victim about the
           availability of an optional Sexual Assault Forensic Examination. If a victim
           chooses to undergo a Sexual Assault Forensic Examination, and the HCP
           determines a Sexual Assault Forensic Examination is indicated by the facts of
           the case, HCPs at military facilities shall conduct the examination according to
           the most current version of Reference (u) and other applicable community
           standards of care.


       Department of Justice, Office of Violence against Women, “National Protocol
for Sexual Assault Medical Forensic Examinations,” September 2004.

      Chapter 6, “Evidence Integrity,” Reference (u) provides specific guidance on
documenting the handling, transfer and storage of evidence:

                Examiners must maintain control of evidence during the exam, while
           evidence is being dried, and until it is in the kit container and sealed (and then
           follow jurisdictional procedures for storing evidence securely or handing it over
           to a duly authorized agent for transfer to a storage site). Documentation should
           continue with each transfer of the evidence to law enforcement, the crime
           laboratory, and others involved in the investigative process. Patients, advocates,
           family members, and other support persons should not handle the evidence.
           Documentation of the chain-of-custody information is vital to ensuring that there
           has been no loss or alteration of evidence prior to trial. Educate all those
           involved in handling, transferring, and storing evidence regarding the specifics
           of maintaining the chain of custody.


Army Regulation 195–5, “Criminal Investigation, Evidence Procedures,” June 25,
2007.

           Chapter 2, “Recording and Accountability of Evidence”, Paragraph
           2–15b, Procedures for restricted or unrestricted reporting states
           that:

                In sexual assault cases, additional forensic evidence may be collected using
           the Sexual Assault Evidence Collection Kit, (referred to hereafter as evidence
           kit) or a suitable substitute. The Military Treatment Facility, SARC, VA, or
           chaplain will have only temporary possession of the evidence and must
           immediately notify the installation Provost Marshal office to transfer custody of
           evidence. The evidence kit, other items such as clothing or bedding sheets, and



                                                  28
IPO2010E001

          any other articles provided by the Military Treatment Facility, SARC, VA, or
          chaplain will be stored in the installation Provost Marshal’s evidence room
          separate from other evidence and property.

               The first law enforcement officer receiving the evidence kit or other items
          will initiate a Department of the Army Form 4137 (Evidence/Property Custody
          Document). Law enforcement personnel will have the Military Treatment
          Facility, SARC, VA, or chaplain sign the Department of the Army Form 4137
          releasing the items to law enforcement. Procedures for handling evidence
          specified in this regulation will be strictly followed.



Air Force OSI Manual 71-122, “Criminal Investigations,” August 13, 2007.

      Chapter 2.12.2, “Sexual Assault Investigations under Restricted and Unrestricted
      Reporting,” paragraph 2.12.2.5.4 “Collection and Preservation of Evidence Under
      Restricted Reporting,” states that:


          When the SARC receives a restricted report of a sexual assault, the victim will
          be informed of the availability of healthcare, including the option of undergoing
          a sexual assault forensic examination (SAFE) and the collection of evidence.
          When authorized by the victim, the SARC or VA will arrange for the SAFE to
          be conducted by properly qualified medical personnel and evidence will be
          processed in a manner that preserves forensic viability and affords a valid chain
          of custody, yet maintains victim confidentiality.

          SARCs and host command authorities are responsible for coordinating and
          resolving any issues with local hospitals that will not conduct a SAFE without
          the initiation of an official investigation.

          AFOSI detachments will receive and store SAFE kits and any bags containing
          clothes or other evidence collected from the victim under restricted reporting.
          Detachments should coordinate with their local SARCs to establish procedures
          for receiving evidence. SAFE kits and all evidence collected should be
          immediately turned over to AFOSI to avoid chain of custody issues. According
          to DoDI 6495.02, AFOSI should receive kits directly from HCPs; however,
          AFOSI will not refuse a SAFE kit received from a SARC (or his or her
          designee).


Navy Criminal Investigative Service Manual 3, “Criminal Investigations,”
December 2006.

      Chapter 34, “DOD Policy on Restricted Reports of Sexual Assault,” paragraph
      4.9b states that:


          Physical Evidence. With the victim's consent, medical providers can utilize a
          physical evidence recovery kit to obtain evidence of a sexual assault. Non-
          identifying information will be placed on the outside of the kit, which will
          eventually be turned over to NCIS if the victim later elects to make an
          unrestricted report of the sexual assault. The Sexual Assault Evidence (SAE)


                                                29
IPO2010E001

        Collection Kit may become an integral aspect of a sexual assault investigation if
        the victim later opts to make an unrestricted report. Since law enforcement is
        not involved in restricted reporting, medical personnel involved in the care of a
        victim may collect items of potential evidentiary value in the SAE Kit. The
        completed SAE Kit will be sealed by medical personnel and mailed to the NCIS
        Consolidated Evidence Facility in Norfolk, VA (the long term evidence storage
        facility) within 48 hours of the evidence collection. Documentation generated
        during the examination shall be placed in a plastic bag and sealed inside the
        SAE Kit. The SAE Kit may also include photographic images saved to a
        compact disc and wet prep materials. A completed chain of custody will
        accompany the SAE Kit. In addition, the VA/SARC will provide a Restricted
        Reporting Case Number (RRCN) for the SAE Kit and notify the NCIS
        Consolidated Evidence Facility, Norfolk, VA via an e-mail message when the
        SAE Kit has been mailed. If a victim or healthcare provider suspects a drug
        facilitated sexual assault, a separate Drug Facilitated Sexual Assault (DFSA) Kit
        will be utilized in addition to the SAE Kit. SAE and DFSA Kits received at the
        Norfolk Consolidated Evidence Facility will be stored for a period of one year.
        If after 12 months a victim has not communicated their desire to change their
        restricted report to unrestricted, the kits stored at the NCIS Consolidated
        Evidence Facility will be destroyed.




                                               30
IPO2010E001


 Appendix C. MCIO Case Data
                              Date of                                                                                          DD Form
  Case Number    Offense    Occurrence         Location      Legal Finding       Case/Offender Disp      SARC      EAP         2701        SAFE Kit
                                             KBR Village,
                                                              Insufficient           Insufficient
       1         Sodomy      21-Apr-05       Bagram AB,                                                Not         Not         Not
                                                               Evidence               Evidence
                                               AFGHAN                                                  Indicated   Indicated   Indicated   Yes
                 Indecent                   PX Station, Cp                                             Not         Not
       2                     4-May-05                        Substantiated           Terminated
                  Assault                     Liberty, IZ                                              Indicated   Indicated   Yes         N/A
                 Indecent                     FOB Lima,       Insufficient           Insufficient      Not         Not         Not
       3                     28-May-05
                  Assault                     Karbala, IZ      Evidence               Evidence         Indicated   Indicated   Indicated   N/A
                                            Housing Unit,
                                                                                     Insufficient
       4          Rape       13-Sep-05     FOB Endurance, Unsubstantiated                              Not         Not         Not
                                                                                      Evidence
                                              Mosul, IZ                                                Indicated   Indicated   Indicated   Yes
                                            Apt, Tower B,
                                                              Insufficient           Insufficient
       5          Rape       21-Oct-05       Kuwait City,                                                                      Not
                                                               Evidence               Evidence
                                               KUWAIT                                                  Yes         Yes         Indicated   Yes
                                            Qtrs, Joint Ops
                                             Compound,                               Insufficient
       6          Rape       15-Dec-05                      Unsubstantiated
                                                Bagram,                               Evidence                                 Not
                                              AFGHAN                                                   Yes         Yes         Indicated   Yes
                                            Trailer, Dodge
                                            City South, Cp
       7          Rape       24-Nov-05                      Unsubstantiated       Unsubstantiated
                                                Victory,                                               Not         Not         Not
                                             Baghdad, IZ                                               Indicated   Indicated   Indicated   N/A
                                           MWR Bldg, FOB
                 Indecent                                                            Non-judicial
       8                     16-Nov-05     Honor, Baghdad,   Substantiated                           Not           Not         Not
                  Assault                                                            Punishment
                                                   IZ                                                Indicated     Indicated   Indicated   N/A
                 Indecent                     Trailer, Cp                                            Not           Not         Not
       9                      12-Jul-05                      Substantiated           Terminated
                  Assault                     Liberty, IZ                                            Indicated     Indicated   Indicated   N/A
                                                                                                     Not           Not         Not
       10         Rape       22-Dec-05     Camp Ramadi, IZ      Substantiated    Pending Prosecution
                                                                                                     Indicated     Indicated   Indicated   Yes
                 Indecent                                                                            Not           Not         Not
       11                    20-Mar-05     Al Asad AB, IZ       Substantiated        Terminated
                  Assault                                                                            Indicated     Indicated   Indicated   N/A
  End of CY05
                                            Next to Mess
                 Indecent                                        Insufficient        Insufficient
       12                    26-Feb-06     Hall, Cp Scania,                                            Not         Not
                  Assault                                         Evidence            Evidence
                                             Nippur, IZ                                                Indicated   Indicated   Yes         N/A
                                           Dining Facility,
                 Indecent
       13                    12-Jun-06      Cp Cedar II,        Substantiated        Terminated                    Not
                  Assault
                                               Tallil, IZ                                              Yes         Indicated   Yes         N/A
                                            Office, COB
       14         Rape       26-Mar-06     Speicher, Tikrit,    Substantiated        Terminated
                                                  IZ                                                   Yes         Yes         Yes         Yes
                                            PX Spa, COB
                 Indecent
      15                     19-May-06     Speicher, Tikrit,    Substantiated        Terminated        Not         Not
                  Assault
                                                  IZ                                                   Indicated   Indicated   Yes         No
                                             Trailer, Cp
                                                                 Insufficient        Insufficient
      16          Rape       25-Jan-06         Victory,                                                Not                     Not
                                                                  Evidence            Evidence
                                            Baghdad, IZ                                                Indicated   Yes         Indicated   No
                                                                                                       Offered     Offered
                 Indecent                  MWR Bldg, Cp                              Non-judicial
       17                    5-Aug-06                           Substantiated                          but         but
                  Assault                  Arifjan, Kuwait                           Punishment
                                                                                                       declined    declined    Yes         N/A
                                              Trailer, Cp
                                                                 Insufficient        Insufficient
       18         Rape       22-Jun-06         Victory,
                                                                  Evidence            Evidence         Not                                 No. Reported
                                             Baghdad, IZ
                                                                                                       Indicated   Yes         Yes         3 months late
                                              Trailer, Cp
                 Indecent
       19                     1-Sep-06         Victory,         Substantiated        Terminated        Not
                  Assault
                                             Baghdad, IZ                                               Indicated   Yes         Yes         N/A
                                            Laundry Bldg,
                 Indecent
       20                    14-Dec-06     Bagram Airfield,     Substantiated        Terminated        Not         Not
                  Assault
                                             Afghanistan                                               Indicated   Indicated   Yes         N/A
                                                                                                       Offered     Offered
                                                                 Insufficient        Insufficient
       21         Rape      Not Reported   Al Asad AB, IZ                                              but         but
                                                                  Evidence            Evidence
                                                                                                       declined    declined    Yes         Yes
  End of CY06
                                            KBR Life Spt
                                                                                                       Offered                             No. Victim
      22          Rape       23-Feb-07     Area, Cp Stryker,    Substantiated    Pending Prosecution               Yes         Yes
                                                                                                       but                                 declined
                                             Baghdad, IZ
                                                                                                       declined
                                            Air Terminal,                                              Offered     Offered
                 Indecent
       23                     3-Mar-07     LSA Anaconda,        Substantiated        Reassigned        but         but         Yes         N/A
                  Assault
                                              Balad, IZ                                                declined    declined
                                                                                                                                           No.
                                           Qtrs, Cp Eggers,                                                                    Not
       24         Rape        25-Jul-07                        Unsubstantiated    Unsubstantiated      Yes         Yes                     Allegation
                                            Afghanistan                                                                        Indicated
                                                                                                                                           Unsub
                                             Room, KBR
                 Indecent                  Compound, LSA
       25                     1-Sep-07                          Substantiated        Terminated        Yes         Yes         Yes         N/A
                  Assault                    Anaconda,
                                              Balad, IZ
  End of CY 07




Highlighted cases indicate complaints that involve a contractor complainant and
contractor offender.


                                                                 31
IPO2010E001


Appendix D. KBR Case Data

  1. Location and Date – USMI Main 7/28/2005 (Information provided in previously
     produced documentation – Jamie Leigh Jones)

  2. Location and Date – B-Sites (Information provided in previously produced
     documentation – Pending Prosecution)

  3. Location and Date – Camp Victory 1/25 or 26/2006

        a. Entity that received the complaint and date received

              Complainant initially reported the alleged incident described in item b
              below via the KBR DRP in mid-February 2006. The DRP referred the
              matter to Employee Relations in Houston, who then communicated the
              report to the legal department, which commenced a KBR Security
              Investigation per COBC procedures.

        b. Nature of complaint

              Complainant alleged that while waiting to talk to Employee Relations
              about her separation of employment (which had been communicated to her
              earlier), complainant sought out the accused at his office and then
              accompanied him to his room voluntarily where he sexually assaulted her.
              Thereafter, they ate lunch together in the DFAC. The accused admitted
              sexual relations on that occasion but stated that it was consensual.

        c. Description of services provided and who provided the services

              None noted in file. Complainant was no longer in theater or an employee
              when she reported the incident.

        d. Type of investigation conducted and by whom

              KBR Security Investigations per COBC procedures.

        e. Actions taken to physically separate the accused and the victim

              None needed since complainant had demobilized prior to reporting the
              incident.

        f. Investigation results

              Complainant’s allegation could not be substantiated.



                                          32
IPO2010E001


         g. Judicial or administrative action taken

              Complainant filed a claim through the KBR DRP which was settled prior
              to arbitration.

  4. Location and Date – B-Sites 6/21 or 22/2006

         a. Entity that received the complaint and date received

              Complainant reported the alleged incident described in item b below to
              KBR Security on September 2, 2006.

         b. Nature of complaint

              Complainant first alleged on September 2, 2006, in the course of an
              investigation of a complaint brought by another employee against the
              accused, that the accused had made several sexual advances towards her
              which she refused, including one night when he came to her living
              container to talk about a death in his family. On September 6,
              complainant changed her prior statement and said that the accused had
              raped her on either June 21 or 22, the night he came into her living
              container to talk about a death in his family.

         c. Description of services provided and who provided the services

              None noted in file.

         d. Type of investigation conducted and by whom

              KBR Security Investigation per COBC procedures. Incident reported to
              CID which performed its own investigation.

         e. Actions taken to physically separate the accused and the victim

              None needed because accused had been terminated before complainant
              raised the allegation of rape.

         f. Investigation results

              Complainant’s allegation could not be substantiated.

         g. Judicial or administrative action taken

              Complainant filed a claim through the KBR DRP which was settled at
              mediation.



                                          33
IPO2010E001


  5. Location and Date – D-5 2/23/2007

        a. Entity that received the complaint and date received

              Complainant reported the alleged incident described in item b below to
              KBR Security and the KBR Medical Department on February 24, 2007.

        b. Nature of complaint

              Complainant alleged she had consensual sexual relations with the accused
              on two occasions prior to the alleged assault (on 2/13 and 2/15 or 16) but
              was seeing someone else and decided to stop having sexual relations with
              the accused. Complainant entered the accused’s living container where
              they kissed and engaged in oral sex consensually but complainant alleged
              that the sexual intercourse that followed was not consensual.

        c. Description of services provided and who provided the services

              Complainant was seen but not medically examined by a KBR Medic, who
              with a KBR Security Technician reported the allegation to the Camp
              Striker Mayor’s Cell. CID and military police personnel arrived
              immediately and took a report from the KBR Medic and Security
              Technician. Complainant refused an offer of medical treatment from a
              military physician. Complainant received counseling services from the
              KBR EAP.

        d. Type of investigation conducted and by whom

              Internal investigation conducted by KBR Employee Relations.          CID
              conducted its own investigation.

        e. Actions taken to physically separate the accused and the victim

              The accused transferred to a different site.

        f. Investigation results

              CID concluded there was not sufficient evidence to refer case to
              Department of Justice under Military Extraterritorial Jurisdiction Act
              (“MEJA”).

        g. Judicial or administrative action taken

              No actions filed against KBR.




                                            34
IPO2010E001


Appendix E. Report Distribution

Office of the Secretary of Defense

Under Secretary of Defense for Personnel and Readiness
Director, DoD Sexual Assault Prevention and Response Office*
General Counsel, Department of Defense


Military Departments

Inspector General, Department of the Army
Commander, U.S. Army Criminal Investigation Command
Naval Inspector General
Director, Naval Criminal Investigative Service
Inspector General, Department of the Air Force
Commander, Air Force Office of Special Investigations


Congressional Committees and Subcommittees, Chairman and Ranking
  Minority Members
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform




                                     35
IPO2010E001


House Subcommittee on Government Efficiency, Financial Management,
  and Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and
  International Relations, Committee on Government Reform




*Recipient of draft report




                                   36
IPO2010E001


Appendix F. Management Comments




                    37
IPO2010E001




Office of the Undersecretary of Defense, (Personnel and Readiness) Comments




                                         38
